No. 20-564

IN THE SUPREME COURT OF THE UNITED STATES
RODNEY CARLISLE, JR., PETITIONER
v.
COMMONWEALTH OF KENTUCKY, RESPONDENT
Certificate of Service
As a member of the bar of this Court, and per agreement with Counsel of
Record for Petitioner, I hereby certify that on this 20th day of January, 2021, I
caused a copy of the Respondent’s Brief in Opposition to be served by electronic mail
on:
David A. O’Neil
Debevoise & Plimpton LLP
801 Pennsylvania Ave. N.W.
Washington, D.C. 20004
(202) 383-8000
daoneil@debevoise.com
Counsel of Record for Petitioner
I further certify that all parties required to be served have been served.

/s/ James Havey
James Havey
Assistant Attorney General
Counsel of Record
Office of the Solicitor General
Criminal Appeals Unit
1024 Capital Center Drive, Suite 200
Frankfort, KY 40601
(502) 696-5342
james.havey@ky.gov

